No.

-5254
Supreme Court, U.S.
FILED

JUL 2 6 2021

3n$$e
Supreme <£ourt of tpe Uniteb Stated

OFFICE OF THE CLERK

BABOUCAR TAAL
Petitioner,
v.
ST MARY’S BANK;
NIEDERMAN STANZEL & LINDSEY ET AL
Respondents

PETITION FOR WRIT OF CERTIORARI

Babouear Taal
59 essex Road
Bedford, NH 03110
(603) 471 9192
taalbb39@gmail.com
Pro se Petitioner
July 26, 2021

RECEIVED
JUL 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT. 5™

1

QUESTIONS PRESENTED
May a party who appears before a state judge who at the same time is donating to the
political campaign of the defendant chairman be entitled to a new trial for wilful violations ofhis
5th, 13th & 14th amendment rights. For in all instances the state judges’ “conflicts” is reflected
in their rulings/orders
May a party who is denied Fair and Impartial adjudication ofhis (federal civil rights)
claims, by state judge, deprived of his basic due process and equal protection rights, upon filing a
Motion to Reopen case per NH statute be entitled to new-assigned judge to be also free, of all
conflicts of interest: pecuniary-personal motives, the very basic for said motion to reopen. This
new J Delker also had conflict of interest with defendant’s Chairman^ Lamontagne, who, per then
NH AG Mclaughlin, provided them information (in die catholic abuse cases).
May a party be entitled to seek redress from the [NH] state’s highest court for Due
Process and Equal Protection and upon that denial and deprivation for relief then seek and
petition for a Writ of Certiorari from the United States Supreme Court for full vindication of his
Constitutional Rights; guarantees, provision & protection afforded to all citizens without regards.
May the state ofNH be required to protect substantive due process and equal protections
rights and adhere to provisions of 28 U.S.C S 455(a). la Allied Signal, 891 ¥2 970, US Supreme
Court held “if the factual basis established by die moving party provides what and objective,
knowledgeable member of the public would find to be a reasonable basis for doubting a judge’s
impartiality, then recusal under 28 U.S.C S 455(a) is required.” Is not NH required to adhere to
statute(s) and case law to satisfy an Equal Protection clause and Due Process of law, guaranteed,
provided and protected to all.

1

May NH adhere to Circuits and US Supreme Court stare decisis in US v. Snyder, 235 F.3d
46 (1st Cir. 20001 the court stated that the “duty to sit does not exert equal weight with avoiding
appearance of impropriety.” For undisclosed conflict of interest constitutes theft of honest
services. Does Not Fraud [on court] violates due process of law, and terminates the “intangible
right to honest services” promised to the People. 18 U.S.C. § 1346. “A conspiracy to Obstruct an
individual's legitimate efforts to seek judicial redress for such a claim interferes with the
individual's Due Process Right of access to die courts”. Bell, 746 Fid 1261
May the US Constitution also protects “the right of individuals to pursue legal redress for
claims which have a reasonable basis in Law and Fact is protected by the First and Fourteenth
Amendments”. Bill Johnson’s Restaurants, Inc. v. NLRB, 461 U.S. 731,741,103 S.Ct. 2161,
2169, 76 L.Ed.2d 277 (1983) Bell v. City ofMilwaukee, 746 F.2d 1205,1261 (7th Cir.1984).
May a plaintiff be able to vindicate bis federal substantive rights as defendant, its
executives, agents and (state actors)co-conspirators upon discovering the deep connections of
said conspirators to violate his substantive rights in an artifice to defraud in a fraudulent
foreclosure(while current on our mortgage) as illegal retaliation. The pattern of misconduct
evidenced a series of mortgage/financial institution fraud and conspiracy to commit bank
Ioans/fmancial institution fraud by said executives and their co-conspirators.
May not at all times, an impartial trier of facts free of all “conflicts of interest”; personal,
pecuniary and familial be a constitutional guarantee - to a free, fair and impartial (free of biases
and/or prejudices) tribunal to achieve the US constitutional rights guarantees! For at all
cases/times St Mary’s control-conspiracy in die state [NH] looms.

2

11

PARTIES TO THE PROCEEDING
The caption names all of the parties to the proceedings at the NH supreme court of the
appeal below.
Petitioner Baboucarr Taal was die plaintiff in die NH superior court Respondents St
Mary’s Bank and Neiderman Stanzel et al were defendants. In the court of appeals below,
Baboucar Taal was the appellant and St Mary’s Bank and Neiderman Stanzel et al were
appellees.
Ovide Lamontagne, Donald St Germaine, Rita Emerson and Katherine Marquis were
persons identified as witnesses with material discovery evidence per federal rules of civil
procedures and whose depositions were sought and production of documents requested on served
(federal) subpoenas, they flouted and ignored and who Uliasz claims to represent (all witnesses
and fellow defendants) in an outright and continuous pattern to obstructjustice.
Jay Nddennan, John Stanzel et al are defendants-witnesses who also refuse to provide
requested discovery and depositions which state (actor) judgement Abramson presided over the
case for false fraudulent claims of debt collection while engaging in illegal access of credit file
reports, barratry, and providing false misleading documentation to die court of law yet J
Abramson also dismissed case for defendants at the time had financial issue but was soliciting
loans from parties appearing before her.

3

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES.

VI

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS AND RULES INVOLVED...!
STATEMENT OF THE CASE

2

REASON FOR GRANTING THE WRIT

4

4

IV

TABLE OF AUTHORITIES
CASES
Allied Signal, 891 F.2 970------------------------------------- -----------Bell v. City of Milwaukee, 746 F.2d 1205, 1261 (7th Cir.1984)----Bill Johnson s Restaurants, Inc. v. NLRB, 461 U.S. (1983)-----------Bounds v. Smith, 430 U.S. 817, 822, 97 S.Ct. 1491,... (1977)------Boyce’s Executors v. Grundy (1830) 28 U.S. 210--------------------Brook v. New Hampshire Supreme Court, 80 F.3d 633 (1st Cir 1996)Bullock v. United States, 763 F.2d 115,... (1985) the 10th Cir-------Casa marie, Inc. v. Superior. Ct of Puerto Rico for Dist. of Arecibo,
988 F. 2d (1st Cir. 1993)
---------------------------------------------------Coffey case LD-2003-011 (NH)--------------------------------------Cleburne v. Cleburne Living Centers, Inc 473 U.S.-----------------Gray v. Evercore Restructuring, LLC, 544 F.3d 320 (1st Cir. 2008) —
Kelly v. U. S., 379 F Sup. 532---------------------------------------------Liteky v. US,114 S.Ct 1147,1162(1994)-------------------------------Marbury v. Madison, 5 U.S. (1 Cranch) 137 (1803)........................
McCloskey v. Mueller, 446 F.3d 262 266 (1st Cir 2006) ----------Norton v. Shelby County, 118 U.S. 425 p. 442 —----------------Nudd v. Burrows (1875) 91 U.S. 416.----------------------------------Rautenberg 107 NH 446, 447(1966)-----------------------------------Rozier v. Ford Motor Co., 573 F.2d 1332,1338 (5th Cir. 1978)----Scheuerv. Rhodes, 416 U.S. 232, 94 S. Ct. 1683, 1687 (1974)----Sherar v. Cullen, 481 F. 2d 946 (1973) ----------------------------------Simmons v. United States , 390 U.S. 377 (1968) —-----------------Siotnick v. Garfmkle, 632 F.2d 163, 165 (1st Cir. 1980)------------Stone v Powell, 428 US (1976)-----------------------------------------Taal v. Uliasz No. 14-1255 (1st Cir 2014)--------------------------Taal v. St Mary’s Bank (2011-CV-741)----------------------------Twombly, 127 S. Ct. at 1965------------------------------------------

5

FEDERAL LAW FOUND IN:
1st Amendment Clause of the U.S. Constitution
5th Amendment Clause of the U.S. Constitution
6th Amendment Clause of the U.S. Constitution
13th Amendment Clause of the U.S. Constitutionand
14th Amendment Clause of the U.S. Constitution,
Constitutional Right to Protest and to Seek Redress for wanton violations
Rights, in Fraudulent Illegal Retaliation to:
The Due Process Right to a Free, Fair Impartial Tribunal, in a Free and Fair
Process of Adjudication by an Honest, Impartial Arbiter of Facts in Law.
The Equal Protection provision to all Citizens in all states as a Right
STATUTES
U.S. Code, Title 5 Section 706(2)(A), §706(2)(E)
U.S. Code Title 18 Section 4
U.S. Code Title 18 Section 241
U.S. Code Title 18 Section 1001
U.S. Code Title 18 Section 1291
U.S. Code Title 18 Section 1346
U.S. Code Title 18 Section 1621
U.S. Code Title 18 Section 1962
U.S. Code Title 28 Section 453
U.S. Code Title 28 Section 455 (a)
U.S. Code Title 28 Section 1254(1)
RULES
Federal Ride of Civil Procedure 26 - 30, 35
OTHER AUTHORITIES
NH Constitution part 1 article 35 NH RSA 643:1 Official Oppression, NH
Superior Court Rules
Black’s Law Dictionary 6th Ed., p. 660.
6

APPENDIX
Appendix: NH Supreme Court Opinions:
Order of the Court Petition for Rehearing - denied dated April 29, 2021
MANDATE dated April 29, 2021
ENDORSED ORDER denying Motion for Recon. Doc. Text 4/29/2021
JUDGMENT dated April 1, 2021
ORDER FOR TRIAL COURT DECISION * provided yet rejected by NH supr court?
Appendix: NH Superior Court Order/Judgement in Civil Case:
Order granting Motion to Dismiss Doc. Text and Order 2/15/2021

7

PETITION FOR A WRIT OF CERTIORARI
1, Baboucar Taal respectfully petitions fora writ of certiorari to review the judgment of
the NH Supreme Court.

OPINIONS BELOW
The decision of the NH Supreme court and trial court is reproduced in die Appendix
The decision of the NH superior court ofNew Hampshire is reproduced in the Appendix

JURISDICTION
This Court’s jurisdiction is invoiced under 28 U.S.C. §1254(1).

STATUTORY PROVISIONS AND RULES INVOLVED
The statutes involved are; U.S. Code, Tide 5 Section 706(2XA), U.S. Code, Tide 18 Section 4:
Section 241: Section 1001: Section 1291: Section 1346, Section 1621: Section 1962 and 28
U.S.C. Section 455(a) Section 1254(1).
The rules involved are Federal Rules of Civil Procedure 26-28,30,35 45.
Federal RESPA Laws.
NH RSA 643:1 Official Oppression

* * *

8

REASON FOR GRANTING THE WRIT

I.

Petitioner’s asserted and documented tacts with reference to both die conducts

and failures in the case of the assigned NH superior court, who even as plaintiff filed
motion for reassignment of die case to die Hillsborough superior- South court for die
obvious conflicts identified, state judge Delker refused to rather sang the praises of St
Mary’s chairman the very subject of the motion to reopen.
And the NH Supreme court err or sidestep in its review of the case, not on the
“issues presented” for review in 28 U.S.C S 455(a) to satisfy Due Process and Equal
Protection clauses. The court calculatedly asked for the trial court’s 'order’ and upon
being provided said order twice, claimed in its dismissal that they woe refaring to the
order 10 years earlier without ever specifying it in its ‘order*. The then trial J Abramson
up till a few months prior sat by designation as the state’s 5 justice quorum during the
time had only 4 justice positions filled.
II.

Here the states’ highest court affirm and dismiss without ever stating why

even as the chiefjustice abides to recused for his connection also to defendant St Mary’s
bank &/or chairman Lamontagne yet judges Abramson and Delker needn’t It would thus
seem inconsistent in the applications of statutes and the law ofthe lower courts. For all
these persons and connection/position with less (1-2 degrees of separation) conflictsconnections with St Mary’s and/or its chairman but are all allowed to make orders that
benefit defendants to render biased orders partial and advantageous to defendants who
those “suspect verdicts” as vindicatio at federal & state highest court to avoid any and all
meaningful review/accountability in courts
The evidence again indicates that not only was plaintifl/appellant denied and
deprived of his Constitutionally Guaranteed Rights, Provision and Protection [Due
Process and Equal Protection] Rights at the state courts afforded to all citizens without
regard. But that petitioner was deprived and denied Equal Protection in NH courts in a
manner an objective lay person could see as vindictive. To use the cases to shield
defendants for reasons and motives contrary to equal justice and rule of law. Federal laws
and statutes define it as “fraud on the courts” and/or “obstruction ofjustice” As the acts
not only are wilful violations of federal & state law but bring disrepute to the [US]

9

judiciary and is of the basic tenet of American justice; free and fair with regards within
Rule of Law. The issues of conflicts are beyond the “appearance” but active obstruction
ofjustice.
HI.

Circuits Courts are united on 28 US. C § 455(a), the US Supreme Court case law

for all United States courts & tribunals, ABA and (state & federal) Canons of Judicial
ethics governing [misjconduct ofjudges. For The United States Supreme Court has
stated “if the factual basis established by the moving party provides what and
objective, knowledgeable member of the public would find to be a reasonable baas
for doubting a judge’s impartiality, then recusal under 28 US.C§455(a) is
Required.” Allied Signal, 891 F.2 970.

B. Code of Conduct for United States Judges:
i-Canons 1: A Judge Should Uphold the Integrity and Independence of the
Judiciary: An Independent and honorable judiciary is indispensable to justice in our
society. A judge should maintain and enforce high standards of conduct and should
personally observe those standards, so that the integrity and independence of the
judiciary be preserved.
it- Canon 2: A Judge Should Avoid Impropriety and the Appearance of Impropriety
in all Activities:
(a) Respectfor Law. Ajudge should Respect and Comply with the law and should act
at all times in a manner that promotes public confidence in tftp integrity and
impartiality of the judiciary.

10

SUMMARY
Introduction
1. This appeal follows from the denial rather, refusal by Judge Delker to apply existing law to
appellant Motion to Reopen two cases adjudicated by state J Abramson while she was
compromised with live conflicts of interest, who engaged in biased, fraud on die court Appellant
here incorporates the issues and facts presented in his Mandatory Appealfsl:

a) against St Maty’s Bank: for not only engaging in defrauding plaintiff and his family but that
the bank and it’s management and their counsels engagement in scorched earth acts in a criminal
enterprise to destroy appellant/plaintiflTvictim and his family just because we said “No That is
Not Right and Illegal” even in NH. St Maty’s, its management and Uliasz et al would engage in
illegal fraudulent foreclosure on our property even as we were not only current but had overpaid
on our mortgage.
This did not stop them from expensing from St Mary’s coffers almost $420,000 to scheme to
destroy us. This amount is about 10% of St Mary’s total profits meant for the ordinary credit
union members. The most puzzling aspect is that our total mortgage was less than $286000.
Where did the money go, though at the time J Abramson and her family had a 2+ years Bedford
tax delinquency lien on their homestead about to be auctioned, they could not afford. Uliasz had
a $50,0(h) IRS tax lien on his home for tax fraud. Neiderman et al wore also aware ofdie
Abramson continuing money problems. Yet at the ray time that she issued orders for defendant
she managed to donate to the campaign of the defendant's chairman when she couldn’t afford.
b) die second case in die Motion to Reopen was, against Jay Neiderman and John Stanzel and
Neiderman et al who boldly claimed to be making $5 million on debt collections and as it turns
out by hook or by crookjbarratry]. Jay Nedierman, John Stanzel et al falsely claim dial they woe
authorized to file this collection claim against me, while knowing its falsity yet wait first before
Circuit J Kinghom to obtain a verdict on a Discover credit card that my wife had paid off in a
consolidation loan from Granite State Credit Union. Jay Neiderman and John Stanzel, frilly
aware of me not being part of die account, still proceeded in real time to present misleading
fraudulent documents to bring their scheme to fruition. In his latest defense/excuse Jay
Neiderman told the NH Prof Conduct Committee that it was John Stanzel “who did if, throwing

11

him under the bus. They both showed up in court, engaged in wanton fraud, the truth, facts and
the law be damned.
c) Jay Neiderman et al aware of that upon providing the requested discovery as provided in NH
Court Rules ofCivil Procedure, they expose their plan and thus refused to, and on the morning of
the trial produce a stack of documents later showed to be doctored along with a life person as
witness from Discover, who offered perjured testimony himself but also stated that he &
Discover provided the requested ‘discovery’ to Neiderman et al at least 3 weeks earlier, and they
refused to provide it that would have allowed us to present the vigorous defense and hopefully
end the fraud then and there.
We complained/objected to i Kinghom, he said we have 10 mins to look through the 80+ pages.
Discovery provided in NH court rules would interfere with their scheme as they, Jay Neiderman,
John Stanzel et al promptly sought from the court an attachment order on our homestead also.
They reckon they can file suits and receive verdicts, courts beckon to their deceit and because of
their connection, race...” They can and are allowed to defraud othos especially minorities
regardless of law or rights.
2. Article 72-a of the New Hampshire Constitution covers the jurisdiction ofthe court “The
judicial power of the state shall be vested in the supreme court, a trial court of general
jurisdiction known as the superior court, and such lower courts as the legislature may
establish under Article 4th ofPart 2”. As the NH Supreme court not only has jurisdiction
including the obligation and supervisory role for the lower courts and discipline authority over
these judges and to do this fundamental task without ‘favoritism’ or fear or any other motives.
The NH supreme court hoe fails to judge the matter per this provision against Equal Protection
3. Appellant case before this court is the simple vindication of his rights as a minority in a
majority state, for not only that the feds are Not In dispute;(see FECF&L analysis, state Judge
Abramson while; presiding over two ofplaintiff's cases, she was donating to the campaign of St
Mary’s Bank chairman, a Ovide Lamontange, who she granted an ex parte restraining order.
Plaintiff further states that all her rulings in the underlying cases were legally unsustainable as
facts and evidence contradicts said findings, clouded by racial animus, rife with pecuniary and
personal “conflicts of interest” In essence “fraud on the court” and plaintiffs federal substantive

12

right to an impartial tribunal denied and deprived for ill and corrupt motive. Wilful violation of
18 U.S. Code § 1346
4. A party is require to provided facts/evidence of the violations of Rule 38, to make a formal
complaint to the NH Judicial Conduct Committee, “JCC” documenting and stating each Canons
of Ethics violations and in my case in a complaint, I did twice to JCC and twice filing a Motion
for her Recusal, which she deny and double-down by calling me a defendant her orders. In one
of her denial orders paraphrasing hei; she said a judge like her just has to be as honest as die rest
of society, really. “Appearance of...” let alone actual conflicts doesn’t bother her. She is right on
that point, the panel adjudicating complaints are her fellow state judges. Fact, truth and the law
means little as her admitted “pecuniary and personal conflict of interest” was never addressed for
she need not be impartial when it’s defendants ; financial institution for NH who’s who. She
refused to sanction defendant and its agent when they outright refuse to and deny my subpoenaed
request for ‘discovery’ and this was after this very Supreme Court reversed her 1st Dismissal for
def. St Mary’s et aL The JCC in both times failed to even adjudicate the facts in the complaint.
5. J Abramson would follow that up with an $1825 as sanction, well after she dismissed my case
the 2nd time, (while making sure we never receive “discovery” we requested provided in NH
court rules), for us demanding that St Mary’s holder of our mortgage, provide us [a legal
provision-RESPA] with our “..Payment History for Mortgage Acct..this as St Mary’s bank and
Uliasz were scheming to defraud us in their follow up illegal foreclosure as retaliation for we
dare to challenge their fraud. This sanction defendant was also the second time after case was
close, but then defendant provide us with the payment history of our mortgage and true to form
we and Atty Michaels) noticed that St Mary’s and Uliasz have been taking our monthly
payments and willfully misapplying to create a late nonpayment to our mortgage to then
fraudulent say aha, we are going to take your house for you dare us, ‘we own NH’.
6. When die Motion to Reopen was assigned to J Delker he also doiied die request to transfer the
case and the very testimony statutory provided in NH law as it proves he also could not render
impartial justice as confirmed by his refusal to delve into issues ofmaterial importance to die
overall NH judicial system; whether ajudge is corrupt and using her position as a state judge to
not only deny and deprive a minority litigant his federal substantive rights and equal protection
but using that position to ‘feather her & her family’s nest’. J Delker could allow it on the record!
13

7. A judge is obligated to take the Facts as they are presented and apply the law(s) without
regards[fear or favor, bias or prejudice], as prescribed by state and federal laws/statutes; a
guarantee, provision and protection (to all without regards) in United States and New Hampshire
Constitutions, and the latter obligated by federal law per [Equal Protection Clause] to afford
equal justice to all black or whites; do impartial justice. Here J Delker ignores and usurps the
very law he is sworn to uphold; doing impartialjustice and very much obstructed justice.
8. Phil McLaughlin, ex NH Atty General, was quoted in die Boston Globe 12/28/2015: “nearly
14 years ago. Worded die sex abuse scandal enveloping die Boston Archdiocese wasn’t confined
to our neighbor to die south, and armed with information from a top church official. McLaughlin
called two of his young staffers, Jim Rosenberg and Will Delker” [now state judge Delker] “ into
his office. With a copy of die Globe on his desk, its banner headline of “Church allowed abuse
by priests for years” revealing a dark secret, McLaughlin said what was on his mind.
9. McLaughlin said in an interview. “The idea that the hierarchy could permit such evil here was
emotionally incomprehensible to me.” McLaughlin began digging by meeting with Monsignor
Edward Arsenault early in 2002. Arsenault assured the attorney general there were no issues in
New Hampshire, no wrongdoing had occurred. McLaughlin relayed Arsenault’s comments to the
Union Leader, but the newspaper’s next-day story set off a chain reaction, beginning with a call
to McLaughlin by Ovide Lamontagne- whom McLaughlin trusted, despite sharp political
differences. Lamontagne twice was the Republican nominee for governor and once the party’s
nominee for the U.S. Senate. He’s now the gert&al counsel of Americans United for Life, a
pro-life public-interest law and policy organization.”
10. State judge Delker in his order for simply calling for testimonies of defendant and its agent in
"motion to reopen’ case for wanton violation and deprivation of due process provided in federal
law and rights; “The motion to quash the subpoena of Ovide Lmontagne is GRANTED.” He
knew Lamontagne from when, per the Boston Globe provided them confidential information, the
legal definition of conflict for he could not render impartial justice on all matters against the
defendant and its chairman Lamontagne.

14

11. Equally state J Abramson, she had contacts with and granted Lamontagne and ex parte
restraining order willfiilly depriving plaintiff his right to a fair impartial tribunal by an
"uninterested honest arbiter’, issued all and all ban on discovery and deposition testimony at the
very time she was donating to his campaign for public office. Encourage legally baseless false
and misleading filings from defendant and counsel and whoa brought to die attention of die court
she failed to make die requisite statutory findings and/or sanctions, thus made unlawful finding.
Chucked the two distinct cases as her discretion to dismiss when facts and the law demand,
supported the legal correct finding for plaintiff, while carrying clear animus and personal
pecuniary "conflicts of interest”.
12. The Due Process Clause entitles a person to an Impartial and Disinterested Tribunal in
both civil and criminal cases.” Marshall v. Jericho, 446 U.S. 238,242,100 S. Ct 1610,64 L.
Ed. 2d 182 (1980). Indeed, "it is axiomatic that ‘(a] fair trial in a fair tribunal is a basic
requirement of due process.’” Caperton v. A.T. Massey Coal Co., 556 U.S. 868,129 S. Ct
2252,173 L. Ed. 2d 1208 (2009) (quoting In re Mmchinson, 349 U.S. 133,136,75 S. Ct 623,99
L. Ed. 2d 942 (1955)). 28 U.S.C. § 455(a) states; a fudge MUST recuse himself “in any
proceeding in which his[her] Impartiality might reasonably be questioned.”
13. This out and out violation ofNH and federal statutes “fraud on the courts”. She also issued
orders that she knew were unsupported and false, aware of the actual violations by defendants
and counsel for money and position, 18 U.S. Code §§ 4r 371. NH Discovery [Rules] was not
meant to be subjective, fin if a sitting judge thinks they can deny a party discovery to deprive
them the right to gamer evidence to present to a jury as the trier of facts, our court system is now
left to the deceit and duplicity of “the lot of society”. Hie acts as here, identical to the criminal
conducts of Judges Porteous, Mark Ciriavella. David Daugherty, who saw and used their
personal pecuniary “conflicts of interest” but also denying and depriving (minority) litigants as
substantive rights to due process, equal protection in a majority state.
14. State J Abramson hoped the defendant’s chairman can and will prime her family’s fortune
should he succeed in the political offices he sought. Say to the state’s highest court or put her
name for federal judgeship, and in turn protect their interest at whichever court she lands. It is all
about selling judicial orders period. Why else would you risk or better yet engage in misconduct

15

with impunity that could land you in federal prison as the infamous names above, even if NH
justice does nothing?
15. These persons continued to interfere to deny plaintiff taking deposition testimony and
defendant St Mary’s to provide requested subpoenaed documentation and when plaintiff sought
Interlocutory appeal with this NH Supreme Court which rested jurisdiction and all further ruling
on the case with the NH Supreme court, Abramson call defendant into court ex parte and dismiss
plaintiff’s case. J Abramson stated in her dismissal order false claim that she did so because
plaintiff “did not” file a Pretrial statement, leaving die false misleading impression that
defendant and its lawyer did file their Pretrial Statement. None was received or docketed by the
clerk’s office on the record. And defendant and atty Uliasz wantonly repeated this misleading
fraudulent statement to this very court with utter disregard to facts and truth.
16. When plaintiff subpoena defendant for documents and witnesses for deposition testimonies,
atty Unliasz and defendant, flouted said requested discovery and he file with the court that No
document will be tum over or testimony given as the court ^ve them flie right A privilege fn
disobey the subpoenas and or provide 'discovery’. In a reasonable person’s mind, J Abramson
action is part of “bribery extortion, quid pro quo scheme” for what otho' reason is there, they are
saying we “paid for these orders and judgment and ifs over. They would theil employ these
tactics until the dismissal they got with a motion in between where St Mary’s and management
paid and approve for Rita Emerson to opportunely disappear to FL, be unavailable to avoid
giving [subpoenaed] deposition which she already disobey by Uliasz’ say so but for in court
testimonies.
17. Court records show there was no filing ofthe defendant’s Pretrial statement as even they
accepted that case jurisdiction was with or at the Supreme Court, especially upon the filing of an
[interlocutory] appeal. Plaintiff was summoned twice on the false outright harassment and
coercion by defendant, atty Uliasz and state actor Abramson as the very time they were pressing
ahead to defraud us with the illegal retaliation in a foreclosure of our property, this while we
were not only current but overpaid on our mortgage, and while for the past 24 months refusing to
provide us with “monthly statements, Escrow disbursements and Projections.”

16

18. The bankruptcy judge would order the defendant to recalculate and correctly apply all our
payments and provide 11s with said documentation. At the time, they had refused to provide the
legal requirement of Monthly Mortgage Statement for 2+ years, continued to just take our
monthly mortgage payment misapplying it to all false accounts, and upon contacting the NH
Banking Department, Uliasz with the beckoning of J Abramson filed a to claim 1 violated an ex
parte restraining order for requesting that St Mary that hold our mortgage provide us with
mortgage and payment accounting. J Abramson would conduct a kangaroo court even as 1
protest that the accused has the right to confront his accuser who signed foe complaint; a Ron
Covey. J Abramson levied an $1825 sanction at foe very time the defendant was forced by NH
Banking Department to provide us the' “payment history” as it's foe law per RESPA, our right,
though RESPA is a federal law and in NH?
19. The second time literally months later was when Uliasz was being investigated by the
Bedford PD for going camping with 14 year olds and taking pictures of them enabled by his wife
who worked for foe Bedford High School. He Uliasz to blunt their investigation paid foe Bedford
PD almost $ 12000 for what he said was security details for day of a foreclosure that was not
happening for foe bankruptcy protection we (forced to) sought to protect our property [as St
Mary’s top management vow to take our house to teach usjand he Uliasz and defendant knew of
this months back.
20. Also Uliasz started to donate to Bedford High School, sponsor events just like that Epstein
guy during foe investigation and like foe Abramsons, he Uliasz had a $50000 IRS lien ofhis
home for tax fraud, while being generous as it turns out it was not just part of a “bill churning”
but Covey and Lamontange had approved it as Uliasz his firm (with redacted portions of the bill
is that one of his lady lawyers Kath Marquis, everybody submit something St Mary’s is paying)
then turn around and submits it as expenses in foe fraudulent foreclosure. What is a grown man
having obsessions with teenagers to do with St Mary’s bank failure to dispose off a RV collateral,
yet Covey & Lamontagne pay and for sanction against the plaintiff to include as they put it
jailing me as they proceed with their illegal foreclosure. Really
21. Where it aid is supposed to be at this state's highest court Obligated to Protect all its
citizens black or white, for the arrogance and contempt of the justice system with impunity is
what defendant and its counsel Uliasz engaged, and this court must not ignore or foil to
17

adjudicate because Abramson is a colleague who they 'broke bread with, socialized and allow to
seat’ in 5th chair. That equal protection, I and similarly situated are routinely denied said rights.
22. In NH it's the judge’s discretion to be denied and deprive due process rights by a corrupt
judge with clear racial animus who is having financial issues. Just these facts are reasons to have
recused herself for it's not a right but privilege to sit as a judge but it's an absolute right as Due
Process Clause entitles a man to an Impartial and Disinterested Tribunal. And the right to
honest unconflicted arbiter who renders a truth laced feet base legally sustainable
unco111! U.UUIised verdict 5th, 6th & 14th Amende ‘must* in §455(a)
23. J Abramsons’ and ex J Coffey don’t see anything wrong with their actions, well it is Illegal
for starters. As with state J Abramson it is Illegal to sit and make judgments in cases you not
only have a “personal and pecuniary conflict of interest” and even after being ask to ‘recuse’, I
ask for her recusal twic, she failed to abide, and this facts make this Motion to Reopen squarely
for a denovo review of all facts/cases/appeal before this court. As any Honest and Impartial
review ofthe facts and her orders is shows that for the Motions to Recusal and Complaints to
JCC she resorted to punish litigant for protecting his guaranteed due process rights. A citizen in
any United States tribunal has the absolute right to have his case tried before a disinterested
honest arbiter, for anything less is wanton “violation a constitutional right”: a guarantee,
provision and protection - in an impartial tribunal Guaranteed by the FifthT Sixth and
Fourteenth Amendment to the United States Constitution”
24. All these lawyers and defendant(s) knew of state J Abramson was broke and carry ill motives
and her orders were not only rife with racial animus but that they are made by someone with
existing financial and personal conflict of interest, as the Abramsons could not afford their real
estate taxes and other basic expenses, with a lien on their property about to be auction, yet saw
both die illegal orders that benefited Messrs Nsidennan, Stanzel et al, Lamoniange, Covey and
St Mary’s and the Abramson in turn giving campaign donation they couldn’t afford. The
misconduct here leaves the court system “compromised” vulnerable to all forms of blackmail
implicit or explicit Compromised court officers are the worst that could happen to a society for
when it is absolutely vital for a court of law’s impartial machinery to function, the machinations
of lawyers had the system compromised and every decision rendered; “fraud on the court”.

18

25. The turning around and donates to the political campaign without any qualms, tells you
everything. The other person who blackmailed the justice system was Epstein for what he did
and knows of others. How did it aid? The two summons order issued by stale J Abramson, ail to
coerce, harass and intimidate plaintiff was all after the case was closed with the 2nd dismissal of
plaintiff’s case for defendants; St Mary, Lamcntagne, Covey and counsels.
26. As St Mary’s continue to in essence embark on “fraud on the court” wife constant repeated
on going ex parte contacts wife J Abramson [as statutory def as ongoing conspiracy to violate
law(fed & state)] St Mary, it’s management and it’s counsel Uliasz; and his firm created an
ongoing criminal enterprise. Uliasz & would proceed to devise and scheme to defraud us the
very act of collecting fee fraudulent $1825 sanction is. When we sought fee accounting history of
our mortgage when we believe we are being defrauded and a state actor sees fit to sanction us for
exercising a right to demand mortgage payment made and fee simple accounting/disbursement
documentation. Her focus was “feathering ha family nest” even when she had dismissed/closed
fee case for defendant and those she has a conflict of interest and in NH feat is all alright for fee
Abramsons are of fee elite race and ethnicity, yet defendant not wanting to jeopardize its banking
license.
27. Time and time a sitting judge engages in wanton preclusion and or willfully denying fee
existence of evidence feat not only supports a party’s [plaintiff here]s case, only because of fee
color of his/ha skin, yet if fee law was follows and die jury as fee trier of facts,allowed to
hear/see fee facts and evidence, wife all probability lead to a jury verdict in favor of appellant. A
court doing this calculation and denying [always minority] plaintiffs is willful violation of basic
due process but wanton obstruction of justice by these “court officers” for greed and judicial
arrogance. One can only conclude feat racial prejudices we continue to suffer are much more
prevalent in NH at the judge’s level who use minority cases to feather their nest, quid pro quos
up the ying yang, and fellow judges ignore and disregard complaints blatantly. The judges boldly
collect lata to these, to “compromise” fee judicial system. A ‘compromised’ NH court infects for
and wide(Hawaii, Maine, DC, Alabama) courts to erode what integrity or confidence is left
28. Jay Nediderman, John Stanzel and their law firm illegally accessed my Credit file and
unauthorized and then filed a collection lawsuit on a Discover account that even in court with
suborned perjury testimony of a Kyle Simpson supposedly an agent sort by Discover to cone

19

testify contradicted their thesis claiming he is “not sugar coating”. But that is contradicted in no
uncertain terms by the very company they purport to represent, but pointedly, Discover said in its
letter(attach) disavowing any ofthe [finaudulentjacts Jay Neider and John Stanzel and their law
firm engaged in falsely, on behalf of Discover. When we sought “discovery" they again failed to
provide the documents for it would disprove and undermine their case, but that did not stop than
from executing their scheme followed by a brazen attachment of our property of a fraudulent
verdict
29. As the evidence showed that Neiderman et al is part of a group of law firms trafficking m
fraudulent claims and always picking their forum courts, unsuspecting and or part and parcel of
the scheme and like St Mary’s when one pushes back their fraud it surprises them yet they would
choose to double-down, to engage in “ongoing conspiracy” to violate law and in effect
defrauding the United States (federal & state) institutions that guaranteed, provide and protect
the citizens ofthe country. Yet the state highest court routinely ignores, for who the victims are.
30. Repeated lack of veracity or evidence and die boldness and brazenness all in outright fraud
and artifice to defraud indicate this is not new. The ease at which they literally employ the very
“court system and officers” that are supposed to be the impartial honest arbiter of the provisions
of law to the frets and evidence or lack of is the same Modus operand!, every time.
31. Plaintiff filed his suit to seek relief in a judicial process, free and fair for the outright fraud
against him and his family, state actor J Abramson again used not the provisions of law to raider
impartial justice but rather racial animus and her connection to, the race and ethnicity of the
defendants to grant them favored justice, legally unsustainable verdict to dismiss my case twice
not base on law, facts or evidence, but her evident “conflict of interest” against “Rule of Law.”
32. The Discover letter dated Aug 11, 2012 disavows witness Simpson who they did not sent to
NH (for if they did, they would have seen his expense report for airffight to NH, renting a car,
staying a hotel, food expense etc) as stated also, that I appellant did not in court challenge
Discover as I “were served with a lawsuit. You did not respond to the lawsuit and judgment
obtained on March 2,2010” The facts deduced from the transcript indicate that Neiderman et al
solicited and produced a ghost witness Kyle Simpson, to brazenly provide and commit perjury,

20

and perpetrate “fraud on the court” directly interfering with impartial functions of the “judicial
machinery” just so they could complete willfril defrauding ofplaintiff
33. We vigorously defended the case objected throughout to no avail and facts truth and our laws
be damn, for they own the NH Justice system, public corruption and die district court before J
Kinghom but now J Ryan ruled against that vcadict as fraudulent yet didn’t or couldn’t allow for
relief thus the suit Hillsborough Superior Court before state J Abramson. The conduct in the
complaint is basic fraud and violation oiFCRA. a criminal violation. Acts by attorney fraudsters
MEMORANDUM OF LAW
34. NH Supreme Court very own Rule 38 Judicial Code of Ethics governing a judge’s conduct
states in relevant part die need [need] for honesty, fairness and impartiality to Maintain
Integrity and Confidence of onr judiciary. Art

part 14 Legal Remedies to be Free.

Complete, and Prompt. Every subject of this state is entitled to a certain remedy, by having
recourse to the laws, for All injuries he may receive in his person, property, or character: to
obtain right and justice freety. without being obliged to purchase it completely, and without
any denial; prompdy, and without delay; conformably to the laws.
35.28 U.S.C. § 455(a), ajudge MUST [Must] recuse him[her]self“in any proceeding In which
his[her] Impartiality might reasonably be questioned.” “The judge does not have to be
subjectively biased or prejudiced, so long as s/he appears to be so.” Liteky v. United States. 510
U.S. 540,553 il2 (1994) Here state J Abramson who is financially and personally conflicted,
biased prejudiced against plaintiff evidenced by her refusal to recuse herself, in case to reach a
certain outcome for defendants). J Delker also failed to recuse for witness Lamontagne
chairman of St Mary’s who was a 'valued information person’ as stated by ex AG, Delker’s boss.
Neutral Impartial Arbiter of Facts in Law are invaluable yet antithetical to functionsNH judge.
The US Constitution guarantees all its citizens, right to ”Dueprocess and Equalprotection”
NH Supreme Court own Rule 38. Code of Judicial Conduct:
[1] An Independent. Fair and Impartial Judiciary is Indispensable to our system of
Justice. The United States legal system is based upon the principle that an independent,
impartial and competent judiciary, composed ofmen and women ofintegrity, will interpret and
apply the law that governs our society. Thus, the judiciary plays a central role in preserving the
21

principles ofjustice and the rule of law. Inherent in all the Rules contained in this Code are the
precepts that judges, individually and collectively, mist respect and honor the judicial nffirp
as a public trust and strite to maintain and wihanr-g amfidenge in fln» legal system

[2] Judges should maintain the dignity of judicial office at all times, and avoid both
impropriety and the appearance of impropriety in their professional and personal lives. They
should aspire at all times to conduct that ensures die greatest possible public confidence in their
independence, impartiality, integrity, and competence.
36. This Supreme Court states “We also review the trial court’s statutory interpretation de novo.
State v. Beauchemin, 161 N.H. 654, 658 (2011). The Equal Protection Clause of the Fourteenth
Amendment to the Federal Constitution states that “no state shall deny anv person within its
jurisdiction the equal protection of the laws’1 Cleburne v. Cleburne Living Centers, Inc, 473
U.S 432,439 10 S. Ct 3246 ... (1985) This Supreme Court in State v. Burke 153_N.H. 361... 897

specific provision of the Federal Constitution precludes appellate review”. NH claims to
offer Equal protection as well, Part I, Articles 2,12 or 141 therefore seek said protection as a
right availably to all cifiwnt
37. As was in the Snow s Case, 140 N.H. at 621, “the judiciary in particular ‘must maintain’ die
strictest integrity” Snow’s Case, 140 N.H. at 622. “Our responsibility as supervisor of the
courts “includes die authority to determine how best to regulate, [judicial] conduct, and therefore
encompasses the discretion to determine when, whether and to what extent discipline should be
imposed.” Petition ofJud. Conduct Comm., 151 N.H. 123,126 (2004) There the NH supreme step
in but here where appellant/victim is minority, the court changed its adjudication to deprive/deny
me protection in the Equal Protection clause ofdie United state Constitution for Abramson &
Delker are colleagues.
38. As “there can he no sanction or penalty imposed upon one [albeit a black man] because
of his exercise of Constitutional Rights.” Schware v. Board of Examiners, U.S. 353 238, 239
(1957) Yet in NH that is what state actor Abramson and Delker has done & is doing with
impunity. We demanded that St Mary’s show us the accounting and application of our mortgage
payment as they falsely continue to claim we are in default and sanction us with $1825. NH law
22

“recognized aiding and abetting in the context of civil actions. The fraudulent sanction for
requesting that St Mary’s provide the documentation that proved they were lying with the
delinquency claim on our mortgage as they tried to collect on die sanction as recently as 2019.
Plante v. Engel, 124 N.H. 213,217 (1983) thus (a person may be liable for damages on a
conspiracy theory for combining with another to commit a civil wrong). NH RSA 564-8:10-1012
NHHB 590FN foresees the continuing ebbing of “fraud on ..."courts, die state and in this case,
absolute need in strengthening Ethics laws and for real Accountability of public officials.

39. The wholesale dismissal of asserted tactual allegation without the basic minimum, the free
fair and meaningful adjudication in an already scheduled hearing (reschedule then cancel by J
Delker’s who is required to do impartial justice) by the NH [RSA] a statutory adjudication is
simply another “white washing” of criminal misconduct and outright obstruction ofjustice. “We
will not disturb the findings of the trial court unless they lack evidentiary support or are
erroneous as a matter of law". Sherrvland v. Snuffer, 150 N.H. 262,265 (2003). “Legal
conclusions and gppBeatkm of law to fact, are reviewed independently tor plain error.
Accordingly, our inquiry is to determine whether the evidence presented to the trial court
reasonably supports its findings, and then whether the court’s decision is consonant with
applicable law. Id. Finally, we review questions of law de novo.” We review the trial court’s
application of the law to the facts de novo.
40. Under the New Hampshire Constitution, it is a privilege, not a right to holdjudicial office. In
order to ensure that the “rights of the people” are secure, our constitution permits judges to “hold
their offices so long as they behave welL" NJH. CONST., pt I, art 35. Our constitutional and
“Judges personify the justice system upon which the public relies to resolve all manner nf
controversy, civil and criminal.” Mna^r nfMnr7/ni 61 ft N F, 7d 123,125 (N.Y. 1993). “It is a
great public trust. Indeed, judges are the most viable symbol ofthe rule oflaw in our society.”
41. NH Supreme Court Rule 38
Our legal system is based on die principle dial an independent, fair and competentjudiciary
will interpret and apply the laws dial govern us. The role ofthe judiciary is central to American
concepts of justice and the Rule of Law. Intrinsic to all sections of this Code are the precepts

23

that judges, individually and collectively, must respect and honor the judicial office as a
system. The judge k an arbiter of FACTS and Tirofnr the- rpmlntinn of disputes and a highly
visible symbol of government undo* the rule of law. The Code ofJudicial Conduct is intended to
establish standards for ethical conduct ofjudges. ...
42. There is “the duty and responsibility of courts to__ protect the judicial processes from
being brought into disrepute and to act vigorously when confronted with acts or conduct which
tend to obstruct or interfere with the due and onterly administration ofjustice.** State v. Moqum,
105 N.H. 9,11 (1963).
ANALYSIS. OBSERVATION AND REQUISITE QUOTATIONS
43. Simply put, when die plaintiff appeared before state J Abramson, she was not focused on
upholding the rule of law, rather 1 was denied and deprived of a Constitutional Right to a free
fair and Impartial justice in die adjudication ofmatters before the Hillsborough Superior Court
Likewise, when the plaintiffappeared before state J Delkef; he was not focused on upholding the
rule of law, rather he was looking and found a way to not have the ex chairman of defendant (St
Mary’s Bank) testify or give testimony. Why? In essence state J Delker could Not render
impartial justice the very reason to recuse, yet his refusal meant I was denied and deprived of a
Constitutional Right to a free fair and impartial justice in the adjudication of matters before the
Hillsborough Superior Court. In so doing, both obstructed justice as defined by this very court
44. The sequence of events, the frets and die law was clear, yet state J Abramson despite having
conflicts of interest with multiple parties still stayed on the cases to make sure the right verdicts
was arrived and achieved for these persons not only can they immediately solve her and family’s
financial problems but that her fortunes can be enhance and these fraudulent verdicts results in
political success of Lamontagne. The verdicts that J Abramson granted to both St Mary’s Bank,
Lamontagne, Uliasz et al and Jay Neiderman and John Stanzel et al not only made mockery of
ourjustice Systran and both cases she didn’t care that die orders were legally unsustainable that
she knew that the NH Supreme Court will find ways and reason to uphold them simply because
die victims are minorities.
45. If as the state of NH has an independent Supreme Court; for honest impartial disinterested
judiciary then they would have found in the undertaking ofthe requisite de novo review to see
24

what we have first hand experience, said all along, the complete record of events, facts and case
law supports for a factual finding consistent with what we seek. Rather it failed equal protection
46. The state AG and others were monitoring each aspect of the cases and or discovery requested
and denied for case(s) they are literally putting obstacles in the spoke wheels ofjustice. What
then does NH provide and guarantee in its constitution when the basic due process is deprived
and deny minority litigants. Equal Protection Federal laws, guarantees rights and even the basic
protection die [NHjstate is required to provide is flouted at the highest level ofNH judiciary.
47. The state highest court fails to hold J Abramson &/or Delker accountable as we insist that tire
provisions of Rule of Law, due process and equal protection be observed. And if public officials
are using their positions flout the laws and/or to enrich themselves at the expense ofpublic
confidence and trust and integrity, accountability is warranted. The NH supreme court says not
here for who the victims are and culprits). The schemes and brazenness varies with modem
twist The NH Supreme court is legally obligated as supervisor of courts yet hoe ignored wanton
flouting of rules and law, violation rights by J Abramson and Delker “A judge is not the court”,
here are allow to bring disrepute to the whole judiciary in these United States?
48. One can be forgiven to conclude with reasonable certainty that they all do, engage in
“conflicts of interest”, “quid pro quo” and feather their nest with orders they give to highest
bidders. St Mary’s implosion as a financial entity rests squarely on and in the jurisdiction ofthe
state’s highest court, this quorum ofjustices.
49. St Mary’s and by its attorney Ulia&z expensed an amount that is more than what is our
mortgage, and spent the last 10 years coming after us because they; St Mary’s failed to dispose of
an RV collateral in a ‘commercially reasonable manner’ per UCC. Defendant and its executives
have written off commercial loans to their friends and families and co- conspirators and for share
buys of equity into the bank.
50. In simple business terms how is a bank with a billion $ in assets claim to only make only
$4.2 million in profits. The $52,000 Uliasz billed and Covey Lamontagne paid in St Mary's
name ‘bill churning’ no doubt recycled bade to the taxes they owed and illegal political
campaigns of their chosen candidates.

25

51. Where else really is the rest of the money going and to whom for what, this money meant for
ordinary share members the right owner ofthis IRS tax exempt institution. To the ‘lay* observer
they would conclude that ourjustice Systran especially in NH is where the rich and connected get
away with rackets) perpetrated on the law abiding, with protection from “court officers” legally
obligated to defend the guarantees, provisions and protection ofthe U S Constitution against all
enemies foreign and domestic, here they are the very ones undermining die justice system to get
ahead. §346, §371
52. ThisN.H. supreme court failed to adopt die presumption of irreparable harm for violations of
constitutional rights espoused by appellant for if not, as it happens confirms what I and my
family have personally observed, that the state judiciary Systran is favors defendants for their
connections against those like us. As die United States Constitution is the overarching authority
in claims of provision, protection and guarantee of rights to all citizens without regards; fact is
NH denies and deprives Equal Protection to minorities.
53. For in NH where the state chartered credit union; St Mary bank and law firms like
Neiderman et al have a hold on the judiciary with impunity. What good is Art 1, part 14 if as it
is arbitrarily only for NH whites, hell with die rest I am still waiting to adjudicate my claims
against these persons before a jury ofpeers, yes [NH] peers and accept their Honest verdict Yes
I still believe in the very systems thes court officers and fiduciaries are wantonly undermining
with impunity.
54. Plaintiff filed a complaint with the NH doj and was ignored as it turn out at the very times,
the FEC and as reported by an article in the Newspaper that the current Attorney General was a
fervent supporter of St Mary’s Chairman political (federal & state) office aspirations with serious
political contribution among the highest from a private citizen. So the NH doj investigating
Abramson from contribution at the very time she was judging a case against St Mary was never
‘gonna happen’. What happened next was a drama one could not come up with. Upon the
election of a new Hillsborough County Attorney,”HCA” I forwarded a copy of the complaint to
his attention, at a time when he would have taken (sworn-in) office. Six months later, I contacted
him to inquire, and he told me he never received that letter, but curiously at that time, the NH
Attorney General had taken over all the ‘prosecutory powers’ for reasons equally curious, for
‘ineptness and chaos’ in the office as reported in the papers. The County Attorney did not get

26
<

back the “prosecutor’s discretions” until June of2020, >5 months before the election the county
attorney would go on to lose. Coincidence? Again what is behind St Mary’s...
55. The wholesale dismissal of the asserted factual allegation in a complaint with further
discovery to evidence and support filed claims is treated as 1 am seeking privilege (pepsi or coke)
formulas. Discovery is provided not only in statute but due process rights allows for parties to
seek and exchange what guarantees evidence and facts based free and fair of adjudication.
Access to courts must be complete and meaningful for die basic minimum, as in our [US] Systran
Rule of Law and Equal Justice in a free and frur adjudication of claims before an impartial arbiter
is a guarantee yet here state judges Delker and Abramson put there thumb on the scales ofjustice
for defendants even as the are ethically, financially and personally conflicted and substantive
rights be damn, Rule of Law wantonly flouted with impunity and NH highest court ignores it alL
56. The filed motions asking her to recused twice was denied as she refuse to, reported her to this
court established authority to review judicial misconduct, twice, she provided false information
to that agency with no repercussion thus flouted die canons of ethics and thus knowing-wilfully
violated of federal rights.
57. Appellant asks the NH Supreme court with Responsibility and Obligation to review and
render the impartial justice consistent with law and federal rights as provided, protected and
guaranteed in United States and NH Constitutions. That also was denied.

STATUTES and CASE LAW SUPPORT FOR GRANTING THE WRIT
58. The Circuits Courts are united on not only what 28 U.S.C § 455(a) dictates, the US
Supreme Court Stare Decisis [caselaw] for [ALL] federal courts, but die provision of federal
Canons of Judicial ethics governing [mis]conducts of [federal] judges in all United State
tribunaL
a.Circuits courts have further gone to juxtapose said conduct that intrafoe with doe
process of law and as obstruction ofjustice and called it “fraud on the court”, as it directly
undermines and renders ineffectual and void, the judicial machinery's impartial functions and
brings disrepute to our judiciary system.

27

b. Here the outright “conflicts of interest” and for “court officers” to refuse to adhere to
statute, case law and ethical conduct, for their prior knowledge of facts and relationships with
defendants: St Mary’s Bank, its management, Gillian Abramson and Lamontagne, issues in
plaintiff appellant case, as All 4 persons worked for a former state Governor. To interfere and
impede due justice simply because they can.
c. Defendant’s chairman Lamontagne receiving campaign contribution from state judge
Abramson, receded by an ex parte restraining order, simply because 1 sought discovery as he was
running for political office in a series of state and federal offices he sought.
59. The United States Supreme Court has slated:
a. “if the factual basis established by the moving party provides what and objective,
knowledgeable member of the public would find to be a reasonable basis for doubting a
judge’s impartiality, then recusal under 28 U-S.C § 455(a) is required.” Allied Signal. 891
F.2 970. Here they repeatedly Refused to Recuse, Why?

b. Disqualification is required if an Objective Observer would entertain reasonable
questions about the judge’s impartiality...to conclude that a Fair and Impartial bearing is
unlikely, the judge must be disqualified. Litekv v US.l 14 S.Ct 1147,...(1994) The U.S.
Constitution Guarantees an unbiased judge who will always provide litigants with full protection
of ALL RIGHTS LET A JURY DECIDE.

c. “The Equal Protection Clause of the Fourteenth Amendment ofdie Federal
Constitution commands that no State shall “deny to any person within its jurisdiction the
Equal Protection of the laws.” Cleburne v. Cleburne Living. Ctrs. Tnc 473 U.S. 432 ... U.S.
Supr. 3249 LJE.2d..(1985)
d. The right of individuals to pursue legal redress for claims which have a reasonable
bash In law and fact is protected by die First and Fourteenth Amendments. Bill Johnson's
R

Inc, v. NLRB. 461 U S. 731,741,103 S.Ct 2161,2169,76 LM2d 277 (19831 BeU

v. City of Milwaukee. 746 F.2d 1205,1261 (7th Cir.1984).

It is

said “Fraud vitiates everything it touches.” (common law maxim) Nudd v. Burrows (1875) 91
U.S. 416.
e. “A corollary of this Right is that efforts by “state actors” [state j Abramson] to
impede an individual's access to courts or administrative agencies may provide the basis for a
28

Constitutional claim under 42 U.S.C. § 1983. Judicial access must be "adequate, effective,
and meaningful," Bounds v. Smith. 430 U.S. 817,

97 S.Ct 1491,52 LJs<L2d 72 (1977)

f. In die evidence of ‘Fraud cm the Conan* “an inquiring court [must] set aside
...decisions... if those decisions are 'arbitrary capricious, abuse of discretion, or otherwise
not in accordance with law,” 5 U.S.C. §706(2XA), or “unsupported by substantial evidence
in die record” id §706(2)(E).
g. The 10th Cir. Court of Appeals describes “Fraud on the court” In Bulloch v. United
States. 763 R2d 1115.1121 as “..fraud which is directed to the JUDICIAL MACHINERY
itself and is not fraud between the parties or fraudulent documents false statements or perjury...
It is where the Court or Member is Corrupted or Influenced thus where the IMPARTIAL
FUNCTIONS of the court have been directly Corrupted.”
h. “Hie Eqnal Protection Clause of the Fourteenth Amendment of die Federal
Constitution commands that no State shall “deny to any person within its jurisdiction the
Eqnal Protection of the laws.” Cleburne v. Cleburne Livg. Ctrs^ Inc 473 U.S. 432... U.S. Supr.
3249 L.E.2d..(1985)
L "When a party relies upon the (Inifpd States Constitution in order to challenge or
sustain die validity of some act of government affecting his legal rights, die court's exercise of
die power ofjudicial review is arguably an inevitable consequence of die feet that a court must
deal with all issues which are necessary to a resolution of the case before it." US Supr. Ct Chief
Justice Marshall in articulating the federal doctrine ofjudicial review in Marimry v Marfiam 5
U.S. (1 Cranch) 137 (1803).
60. Code of Conduct for United States Judges:
A.Canons 1: A Judge Should Uphold the Integrity and independence of die Judiciary: An
independent and honorable judiciary is indispensable to justice in our society. A judge should
maintain and enforce high standards of conduct and should personally observe those standards,
so that the integrity and independence of the judiciary be preserved.
B. Canon 2: A Judge Should Avoid Impropriety and the Appearance of Impropriety
in all Activities:
(a) Respectfor Law. A judge should Respect and Comply with the law and should act
at all times in a manner that promotes public confidence in the integrity and
impartiality of the judiciary.
29

(b) Outside Influence. A judge should not allow family, social, political, financial, or
other relationships to influence judicial conduct/judgment.
(c) Nondiscrimmatory Membership. A judge should not hold membership in any
organization that practices invidious discrimination on the basis of race, sex, religion, or
national origin.
C. Canon 3: A Judge Should Perform the Duties of the Office Fairly, Impartially and
Diligently. The duties of judicial office take Precedence over all other activities. In
performing the duties prescribed by law, the judge should adhere to the following standards:
(A) Adjudicative Responsibilities.
(1) A judge should be taithfol to, and maintain professional competence in, the law and
should not be swayed by partisan interests, public clamor, or fear of criticism.
(2) A judge should hear and decide matters assigned, unless disqualified, and should
maintain order and decorum in all judicial proceedings.
(3) A judge should be patient dignified, respectful, and courteous to litigants, jurors,
witnesses, lawyers, and others with whom the judge deals in an official capacity. A judge
should require similar conduct of those subject to the judge’s control, including lawyers to
file extent consistent with their role in the adversary process.
(4) A judge should accord to every person who has a legal interest in a proceeding, and
that person’s lawyer, the full right to be heard according to law. Except as set out below,
a judge should not initiate, permit, or consider ex parte communications or consider
other communications concerning a pending or impending matter that are made
outside tbe presence of the parties or their lawyers.
61.28 IJ-S.C- $ 453 Oath of Justices and Judges:
"Each justice or judge of the United States shall take (he following oath or affirmation before
performing the duties of his office: "1,
do solemnly swear (or affirm) that 1 will
administer justice without respect to persons, and do equal right to the poor and to fire rich,
and that 1 will Faithfully and Impartially discharge and perform all the duties incumbent
under the Constitution and laws of the United States. So help me God.”
upon me as
62. There exist here IMPORTANT FEDERAL QUESTION/ESSUES; as the federal Laws,
Statutes and Rules of procedures plaintiff/appellant Relied upon and continue to have
neither been nullified by the United States Congress or reinterpreted to give a by the United
States Supreme Court the supreme law of the land.
1 .Why then was 1 Denied and Deprived repeatedly of a Free and Fair adjudication by an
Impartial but for (pecuniary persona! conflicts of interest), (be very persons, facts and evidence
indicate they have known and/or participated in misconduct plaintiff asserted in his original
complaint and be wantonly and deliberately denied basic due process right; to present facts and
30

evidence before a jury of peers as arbiter of facts to weigh and judge by the standard of proof;
mere preponderance of the evidence.
2. Is it because the very people sworn to uphold our laws are the very people obstructing
and usurping federal guarantees, protections and provisions that die United States Constitution
affords to all its citizens without regards to race, ethnicity, religion, national origin...
63. As USC 28 §455(a), the 5th and 14th Amendment ofdie US Constitution guarantees all
citizens their right to due process and die equal protection clause further protects minority
citizens in majority states equal rights afforded to all but in state of NH fail to provide federal
guarantees. The state highest looks at the flouting of rules and law as per for the course when
done to minority victims for the greater good for state bank’s like St Mary’s et aL The legal
definition of “conflict of interest” is clear. Reasons for Recusal is also clear. Basic Due Process
requirement is also clear yet in NH time and time again re-define to serve die connected.
vii The Impartial disinterested functions of the judicial machinery must be allowed to
perform with credibility and integrity, rather for die obvious machination, usurped to deny and
deprive petitioner his substantive rights for defendants. Described as Black Letter Law.
Vm. Fraud, by definition, is an intentional perversion oftruth. Fraud may be by direct
falsehood, or innuendo, or suppression of truth,..., by speech or by silence, etc. Black’s Law
Diet 6th Ed., p. 660. Fraud violates due process of law, and terminates die “intangible right to
honest services” promised to the People. 18 D5.C. § 1346. Here repeatedly employed by these
CONCLUSION
For these Reasons; provisions, protection and Guarantees of Substantive Rights Rule of Law, the
petition by Baboucarr Taal for a writ of certiorari should be Granted, in die Interest ofjustice.
Respectfully submitted^

Dated: July 26,2021

Baboucar Taal, Pro Se petitioner and all similarly situated
59 Essex Road,
Bedford, NH 03110
(603)471 9192
taalbb39@gmail.com
CERTIFICATE OF SERVICE
L, Baboucar Taal, here certify that copy of the writ certiorari was by USPS mail to respondents:
-St Mary’s Bank by their counsel Fenniger & Uliasz 45 Bay Street, Manchester, NH 03104
-Discover Bank by their counsel Bussiere & Bussiere 15 North St,, Manchester, NH 03104
*

Baboucar Taal, pro se petitioner

Dated: July 26,2021
31

